                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: I02030008                                                                    Page 1 of 1



         On February 8,2002, we received a complaint concerning a workshop award' and a pending
         proposal for a follow-on workshop2.In the.course of our preliminary inquiry we resolved issues
         related to the pending proposal, but issues remained with respect to the active award.
         Specifically, (1) the award primarily provided support for group travel, but most of the funds
         remained unexpended long after the workshop had occurred; (2) the timing and amount o'f
         awardee payments did not clearly correspond to items in the project budget. On March 7, ,we
         closed the preliminary inquiry and opened an investigation into misuse of government funds.

         In the course of our investigation, we requested and received detailed records of financial
         expenditures on the award from the institution's Authorized Organizational Representative. Our
         review of these records, performed with the assistance of OIG Audit Staff, indicated that all
         expenditures were allowable. The level of unexpended funds was accounted for by the fact that
         only three researchers attended the workshop with NSF support.

          Accordingly, this case is closed and no further action will be taken.




           ' [redacted]
           ' I redactea.I




                                                                                                               '11
I   -
        Sign / date
                            I                                                                       01G-02-2
